                                          U.S. DEPARTMENT OF EDUCATION
                                           OFFICE OF INSPECTOR GENERAL




                AN OIG PERSPECTIVE ON THE
               GUN-FREE SCHOOLS ACT OF 1994




                          Control Number ED-OIG/S03-A0018
                                           MARCH 2001




Our mission is to promote the efficient                 U.S. Department of Education
and effective use of taxpayer dollars                   Office of Inspector General
in support of American education.                       Philadelphia, Pennsylvania
                    OIG PERSPECTIVE ON THE
                  GUN-FREE SCHOOLS ACT OF 1994
                    CONTROL NUMBER ED-OIG/S03-A0018

                             TABLE OF CONTENTS


                                                                          Page
Executive Summary……………………………………………………………………….1

Purpose and Scope………………………………………………………………………...3

Background………………………………………………………………………………..3

Issue No. 1 – Expulsions for BB guns, pellet guns, antique firearms,
or replicas of antique firearms are not required under the Act……………………………4

   Issue for Consideration……...………………………………………………………...4

   Illustration of Airgun and Firearm Pistols……….…...…...…………….…………….5

   Consumer Product Safety Commission Warning……………………………………..6

Issue No. 2 - The Act requires SEAs and LEAs to report information
on students expelled for firearms, and not specifically on incidents involving
students found to have brought firearms to school.………………………………..……...7

   Issue for Consideration…………………………………………………………….….9

Issue No. 3 – Implementation of the Act could be improved by
clarifying the law………………………………………………………………………...10

   Issues for Consideration..……………………………………………………………10

Appendix: Summary of Audits and Findings……………………………………………11
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                              CONTROL NUMBER ED OIG/S03-A0018



                                EXECUTIVE SUMMARY

This paper provides a discussion of issues surrounding the Gun-Free Schools Act of 1994
(the Act). It is designed to assist U.S. Department of Education (ED) officials and
Congress in determining if revisions to the Act are necessary.            The pending
reauthorization of the Elementary and Secondary Education Act of 1965 provides ED and
Congress with an opportunity to amend the Act.

To assist in this task, the OIG offers the following issues for consideration:

q   The Act does not cover a student who is determined to have brought to school an
    airgun (i.e., BB gun or pellet gun), antique firearm, or replica of an antique firearm.
    These weapons are not included because the Act defines a weapon as a firearm under
    Title 18 U.S.C. §921. BB guns, pellet guns, antique firearms, and replicas of antique
    firearms are not considered firearms under Title 18 U.S.C. §921. Our audit work
    found that confusion over which weapons qualify as a firearm resulted in some state
    education agencies (SEAs) and local education agencies (LEAs) submitting an
    inaccurate report of expulsions under the Act. According to the Centers for Disease
    Control and Prevention and the Consumer Product Safety Commission, in some
    instances high-velocity airguns may cause serious injury or death. In addition, some
    conventional firearms and airguns can be similar in appearance.

    Ø Determine if the Act should be amended to include airguns (i.e., BB guns and
      pellet guns), antique firearms, and replicas of antique firearms.

q   The Act requires SEAs and LEAs to collect and report information on expulsions of
    students found to have brought firearms to school. ED has issued new guidance and a
    revised data collection instrument to improve the reporting of incidents that do not
    result in expulsion. However, the Act does not expressly require SEAs and LEAs to
    collect information on incidents involving students found to have brought firearms to
    school.

    Ø Determine if the Act should be amended to specifically require SEAs and LEAs
      to collect and report information on incidents of students found to have brought
      firearms to school and the resulting disciplinary actions (i.e., expulsion or
      modified expulsion).

q   Items within the Act require clarification. First, the Act contains an incorrect
    reference in describing the information SEAs must report to ED. Specifically, Title
    20 U.S.C. §8921(e) incorrectly refers to §8921(c), rather than subsection (d), which
    describes what information SEAs shall collect from LEAs. Second, Title 20 U.S.C.
    §8921(b)(4) states, “…[T]he term weapon means a firearm…” However, §8922(a)
    requires LEAs to have a policy requiring the referral to a criminal justice or juvenile
    delinquency system any student who brings a “firearm or weapon” to a school.
    Because §8922 uses the terms firearm and weapon, the term weapon refers to


                                            Page 1
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                         CONTROL NUMBER ED OIG/S03-A0018

   something other than a firearm, whereas in §8921 weapon means a firearm. Third,
   the Act does not specify expulsion as the consequence for students found in
   possession of a firearm, because Title 20 U.S.C. §8921 and §8922 use the term bring
   or brought, rather than possess.

   Ø Amend the reference in Title 20 U.S.C. §8921(e) from subsection (c) to
     subsection (d), which describes what information shall be collected and reported.

   Ø Amend Title 20 U.S.C. §8921 and §8922 so that the term weapon is used
     consistently in both sections.

   Ø Amend Title 20 U.S.C. §8921 and §8922 so that the Act specifically applies to
     students who bring or possess a firearm.




                                        Page 2
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                        CONTROL NUMBER ED OIG/S03-A0018



                                       PURPOSE AND SCOPE

This paper provides a discussion of issues surrounding the Gun-Free Schools Act of 1994
(the Act). It is designed to assist the U.S. Department of Education (ED) officials and
Congress in determining if revisions to the Act are necessary.               The pending
reauthorization of the Elementary and Secondary Education Act of 1965 provides ED and
Congress with an opportunity to amend the Act. We conducted eight audits1 concerning
state education agency (SEA) and local education agency (LEA) compliance with the Act
for the 1997-98 school year. In conducting our audits, we visited seven states and forty-
three LEAs. We interviewed more than 1,500 officials from ED, SEAs, LEAs, and
school administrators, teachers, counselors, students, parent organization representatives,
and law enforcement officials. The eight audits were performed in accordance with
government auditing standards appropriate to the scope of the reviews. Using the
experience gained while conducting these audits and their results, we developed this
paper to provide an OIG perspective on the Act and suggest issues to be considered
during reauthorization of the Elementary and Secondary Education Act of 1965.

                                            BACKGROUND

The Gun Free Schools Act of 1994 (Title 20 U.S.C. §8921, §8922, and §8923) requires
states to have in effect a law requiring LEAs to expel from school, for a period of not less
than one year, a student who is determined to have brought a firearm to school, except
that such state law shall allow the LEA’s chief administering officer to modify such
expulsion requirement on a case-by-case basis. The Act also requires SEAs to report
annually to ED information on firearm expulsions under the state law.

The Act requires LEAs to comply with the state law, provide an assurance of compliance
with the state law to the SEA, report annually to the SEA information on expulsions
under the state law, and implement a policy requiring referral to a criminal justice or
juvenile delinquency system of any student who brings a weapon to school.

Fifty-five SEAs submitted data for both the 1997-98 and 1998-99 school years. Among
these SEAs, 3,658 expulsions were reported for the 1997-98 school year and 3,523
expulsions were reported for the 1998-99 school year. Eleven SEAs revised the data they
submitted for the 1997-98 school year.




1
 For a complete listing of the audits and findings used in developing this paper, please refer to the
Appendix on page 11. The listing includes seven individual state audit reports and one national audit report.


                                                   Page 3
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                      CONTROL NUMBER ED OIG/S03-A0018



ISSUE NO. 1 - EXPULSIONS  FOR BB GUNS, PELLET GUNS, ANTIQUE FIREARMS, OR
REPLICAS OF ANTIQUE FIREARMS ARE NOT REQUIRED UNDER THE ACT.


The Act does not cover a student who is determined to have brought to school an airgun
(i.e., BB gun or pellet gun), antique firearm, or replica of an antique firearm. The Act
defines a weapon as a firearm under Title 18 U.S.C. §921. BB guns, pellet guns, antique
firearms, and replicas of antique firearms are not considered firearms under Title 18
U.S.C. §921. The Bureau of Alcohol, Tobacco and Firearms is the agency responsible
for providing a definitive statement about the kinds of weapons that do not qualify as a
firearm under Title 18 U.S.C. §921. Our audit work found that confusion over which
weapons qualify as a firearm resulted in some SEAs and LEAs submitting an inaccurate
report of expulsions under the Act.2 According to the Centers for Disease Control and
Prevention3 and the Consumer Product Safety Commission,4 in some instances high-
velocity airguns may cause serious injury or death. In addition, some conventional
firearms and airguns can be similar in appearance. For illustrated examples of a firearm
and an airgun, see page 5. For the Consumer Product Safety Commission warning
regarding BB guns, see page 6.


Issue for Consideration:

1.1     Determine if the Act should be amended to include airguns (i.e., BB guns and
        pellet guns), antique firearms, and replicas of antique firearms.




2
   ED’s Guidance Concerning State and Local Responsibilities Under the Gun-Free Schools Act of 1994
(originally issued January 20, 1995 and revised on October 31, 1995 and September 29, 2000) notes that
states, SEAs, and LEAs may expand, at their own discretion, their statutes and policies to require
expulsions for weapons other than firearms. Among the states included in our audits, some of the states
required LEAs to expel students found to have brought an airgun, antique firearm, or replica of an antique
firearm to school, whereas other states left the disciplinary consequences for such infractions to be
determined by the LEA.
3
 See http://www.cdc.gov/mmwr/preview/mmwrhtml/00039773.htm for related CDC Morbidity and
Mortality Weekly Report article.
4
  See http://www.cpsc.gov/cpscpub/pubs/5089.html for selected CPSC information on BB guns; see also
page 6 of this perspective paper.




                                                  Page 4
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                      CONTROL NUMBER ED OIG/S03-A0018



                     ILLUSTRATION OF AIRGUN AND FIREARM PISTOLS5




                                                     .177 Caliber Pellet Pistol
                                                     (Airgun)




                                                         .40 Caliber Pistol
                                                         (Firearm)




5
  Photo taken by ED OIG personnel. The photograph has been edited to remove any identifying markings
from the pistols.


                                                Page 5
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                  CONTROL NUMBER ED OIG/S03-A0018




                 Consumer Product Safety Commission6
                                   BB Guns Can Kill
                                     CPSC Document #5089


BB guns can kill a person. High-velocity BB          Therefore the CPSC warns that children under
guns, which have muzzle velocities higher            16 years of age should not use high-velocity
than 350 feet per second, can increase this          BB or pellet guns. And, like firearms, these
risk. The U.S. Consumer Product Safety               guns should never be aimed at another person.
Commission has reports of about 4 deaths
per year caused by BB guns or pellet rifles.         An example of the type of warning found on
                                                     high-velocity BB guns is:
Many people do not realize that BB guns,
especially high-velocity guns, can cause
death.




6
    Source: Consumer Product Safety Commission, Document #5089.


                                                Page 6
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                      CONTROL NUMBER ED OIG/S03-A0018



ISSUE NO. 2 - THE ACT  REQUIRES SEAS AND LEAS TO REPORT INFORMATION ON
STUDENTS EXPELLED FOR FIREARMS, AND NOT SPECIFICALLY ON INCIDENTS INVOLVING
STUDENTS FOUND TO HAVE BROUGHT FIREARMS TO SCHOOL.


Annually, ED issues The Report on State Implementation of the Gun-Free Schools Act.
The report provides information on students expelled7 for firearms, and not on incidents
involving students found to have brought firearms to school. The “Data Quality and
Interpretation of Findings” section of the report for the 1997-98 school year states,
“…[T]his report is not designed to provide information to the reader regarding the rate at
which students carry firearms to school. The data reported by the states concern
disciplinary actions only.” Our audits identified the following incidents, which occurred
during the 1997-98 school year, that were not included in the report because they did not
result in an expulsion.

•   One Colorado LEA conducted an expulsion hearing for a student with a disability
    who brought a firearm to school. It was determined that the student’s action was a
    manifestation of the disability, therefore the student was not expelled. The student
    was disciplined according to Individuals with Disabilities Education Act and placed
    on home teaching and recommended to an alternative education setting. This incident
    was resolved in accordance with the Gun-Free Schools Act, state law, and LEA
    policy. The Gun-Free Schools Act states that it shall be construed in accordance with
    the Individuals with Disabilities Act. LEAs are able to discipline students with
    disabilities in accordance with the Individuals with Disabilities Act by exercising the
    case-by-case exception contained in the Gun-Free Schools Act.

•   The same Colorado LEA conducted an expulsion hearing for a high school senior
    who had brought a firearm to school at the end of the school year. However, the LEA
    did not expel the student because the student had graduated prior to the date of the
    expulsion hearing. This incident was resolved in accordance with the Act, state law,
    and LEA policy.

•   At one Wisconsin LEA, we identified seven incidents involving students with
    disabilities who brought firearms to school and the LEA did not expel them. A LEA
    official informed us that the LEA did not report the incidents involving students with
    disabilities because of a state law. The official indicated that during the 1997-98
    school year the LEA only had the authority to remove a student with disabilities for
    ten days, after which the student had to be returned to the original class setting. The
    official informed us that the state law was subsequently changed for the 1998-99


7
  The Act specifies expulsion, for a period of not less than one year, as the standard disciplinary action.
According to ED’s Guidance Concerning State and Local Responsibilities Under the Act, expulsion is not
defined by the Act, however, at a minimum, expulsion means removal from the student’s regular program.
The Act allows a LEAs’ chief administering officer to modify the expulsion requirement on a case-by-case
basis. Modified expulsions can be an expulsion or suspension for a period of less than one year or the
imposition of no penalty.


                                                  Page 7
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                             CONTROL NUMBER ED OIG/S03-A0018

    school year, and the LEA now conducts manifestation determination hearings and
    expels students when the misconduct is not a manifestation of the student’s disability.

•   At one Maryland LEA, a student who brought a firearm to school was not expelled.
    Instead, the school’s administration allowed the student to withdraw. The LEA’s
    administration was not informed of the incident. Police arrested and charged the
    student with possession of a handgun. The incident was not resolved according to the
    Act, state law, and LEA policy.

•   One New Mexico LEA reported to the SEA twelve expulsions for firearm incidents.
    However, our review of local law enforcement reports and other records identified
    twenty-six students who were involved in firearm incidents. Based on enrollment
    records, we determined that the LEA did not expel the remaining fourteen students
    involved in firearm incidents. The LEA did not resolve these incidents in accordance
    with the Act, state law, and LEA policy.

•   At one California LEA, school officials did not recommend a student involved in a
    firearm incident for expulsion. According to a school official, the school took no
    expulsion action because the student was arrested and did not return to school. The
    student apparently did not enroll at another school since the school had not received a
    request for the student’s records. The incident was not resolved according to the Act,
    state law, and LEA policy.

•   At two California LEAs, we identified five firearm-related incidents involving
    students with disabilities. The students were not expelled because it was determined
    that the student’s action was a manifestation of their disability or the student’s needs
    were not properly served at the time of the incident. Under California Education
    Code, the governing board is required to modify the expulsion requirement (i.e., not
    expel) for students with disabilities when an Individualized Education Program team
    determines that the students’ actions were a manifestation of their disability or the
    students were not appropriately placed at the time.

Future reports should contain information on incidents similar to the preceding examples
because of a revised data collection instrument and new guidance issued by ED. The
revised data collection instrument, approved by the Office of Management and Budget,
requests SEAs to report information on incidents in which a student has brought a firearm
to school, rather than information on the resulting expulsion. Both the revised data
collection instrument and new guidance, revised on September 29, 2000, direct LEAs and
SEAs to report information about any incident covered by the Act. Any student found to
have brought a firearm to school should be reported as an infraction, even if the LEA’s
chief administering officer elects to shorten the expulsion or impose no penalty. Any
incident in which a student is covered by the provisions of the Individuals with
Disabilities Education Act and brings a firearm to school should also be included, even if
it is determined that the incident is a manifestation of the student’s disability.
Modifications of the one-year expulsion requirement should also be reported in the
response to the report’s questions concerning modified expulsions.



                                           Page 8
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                          CONTROL NUMBER ED OIG/S03-A0018


The new guidance and revised data collection form requests information on incidents in
which a student has brought a firearm to school. The Act does not expressly require
SEAs and LEAs to collect and report information on incidents involving students found
to have brought firearms to school. The Act requires SEAs and LEAs to collect and
report information on expulsions imposed under the state law. Title 20 U.S.C.
§8921(d)(2) requires LEAs to provide SEAs with “a description of the circumstances
surrounding any expulsions imposed under the State law…” and §8921(e) states, “Each
State shall report the information described in subsection (c)8 of this section to the
Secretary on an annual basis.”

Despite containing information on incidents similar to the preceding examples that were
not captured in a previous report, the revised data collection instrument may not result in
an accurate count of expulsions under the Act. The revised data collection form requests
information on incidents in which a student has brought a firearm to school and the
resulting modified expulsions. But as shown in the previous examples, all incidents
covered under the Act do not result in a LEA’s chief administering officer formally
expelling or modifying the expulsion requirement of a student involved in an incident
covered under the Act. Therefore, collecting information on the count of incidents
covered under the Act and the resulting modified expulsions may not result in an accurate
count of expulsions under the Act.

Without accurate data on incidents of students who have brought firearms to school,
education agencies are unable to assess the success of programs and strategies being used
to keep firearms out of schools. In addition, ED is unable to understand the nature and
extent of the problem of students bringing firearms to school from a national perspective.
Furthermore, without information on incidents of students who have brought firearms to
school and the resulting expulsions or modified expulsions, SEAs and LEAs are unable to
determine if the Act’s provisions are being enforced consistently in their jurisdictions.

Issue for Consideration:

2.1        Determine if the Act should be amended to specifically require SEAs and LEAs
           to collect and report information on incidents of students found to have brought
           firearms to school and the resulting disciplinary actions (i.e., expulsion or
           modified expulsion).




8
    This reference should be to subsection (d) as discussed on page 10.


                                                     Page 9
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                              CONTROL NUMBER ED OIG/S03-A0018


ISSUE NO. 3 – IMPLEMENTATION          OF THE   ACT    COULD BE IMPROVED BY CLARIFYING
THE LAW.


In conducting our audits, we identified items within the Act that require clarification.
Without clarification, SEAs and LEAs may incorrectly implement the Act, resulting in
non-compliance or the submission of erroneous information on disciplinary actions under
the Act. The items requiring clarification are:
•     The Act contains an incorrect reference in describing the information SEAs must
      report to ED. Title 20 U.S.C. §8921(e) incorrectly refers to §8921(c). §8921(e)
      states, “Each State shall report the information described in subsection (c) of this
      section to the Secretary on an annual basis.” The reference in §8921(e) should be to
      subsection (d), which describes the information SEAs shall collect from LEAs.
•     Title 20 U.S.C. §8921(b)(4) states, “…[T]he term weapon means a firearm…”
      However, §8922(a) requires LEAs to have a policy requiring the referral to a criminal
      justice or juvenile delinquency system any student who brings a “firearm or weapon”
      to a school. Because §8922 uses the terms firearm and weapon, the term weapon
      refers to something other than a firearm, whereas in §8921 weapon means a firearm.
      Our audit work found that confusion over which weapons qualify as a firearm
      resulted in some SEAs and LEAs submitting an inaccurate report of expulsions under
      the Act.
•     The Act does not specify expulsion as the consequence for students found in
      possession of a firearm. Title 20 U.S.C. §8921 and §8922 use the term bring or
      brought, rather than possess. §8921(b)(1) states, “…[E]ach State receiving Federal
      funds under this chapter shall have in effect a State law requiring local educational
      agencies to expel from school for a period of not less than one year a student who is
      determined to have brought a weapon to a school under the jurisdiction of local
      educational agencies in that State…” [emphasis added]. In addition, §8922(a) states,
      “No funds shall be made available under this chapter to any local educational agency
      unless such agency has a policy requiring referral to the criminal justice or juvenile
      delinquency system of any student who brings a firearm or weapon to a school served
      by such agency” [emphasis added]. Therefore, the expulsion requirement under the
      Act may not apply to a student who is found in possession of a firearm that another
      person or student brought to school.
Issues for Consideration:
3.1      Amend the reference in Title 20 U.S.C. §8921(e) from subsection (c) to
         subsection (d), which describes what information shall be collected and reported.
3.2      Amend Title 20 U.S.C. §8921 and §8922 so that the term weapon is used
         consistently in both sections.
3.3      Amend Title 20 U.S.C. §8921 and §8922 so that the Act specifically applies to
         students who bring or possess a firearm.




                                            Page 10
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                       CONTROL NUMBER ED OIG/S03-A0018




                       APPENDIX: SUMMARY OF AUDITS AND FINDINGS

State and Local Education Agencies’ Compliance with the Gun-Free Schools Act of
1994 (ACN A03-A0018)
   Finding No. 1 – Two of the seven states have laws that may not be in full compliance with the Act.

   Finding No. 2 – Confusion over which weapons qualify as a firearm resulted in an inaccurate report of
   expulsions under the Act.

   Finding No. 3 – SEAs and LEAs did not report accurate data concerning firearm expulsions to ED.

   Finding No. 4 – Implementation of the Act could be improved by providing additional guidance.

California State and Local Educational Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (CAN A09-A0008)
   Finding No. 1 – California state law may not require mandatory expulsions of students who bring
   explosives to school.
   Finding No. 2 – LEA’s decisions to modify the expulsion requirement were made at lower
   organizational levels than allowed by the Act.
   Finding No. 3 – CDE and LEAs made errors when compiling expulsion information for the Act
   reports.
   Finding No. 4 – LEAs did not provide CDE with school-level data as required by the Act.

Colorado State and Local Education Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (ACN A03-A0008)
   Finding No. 1 – The Colorado Revised Statute may not be in full compliance with the Act.
   Finding No. 2 – Confusion over what weapons qualify as a firearm resulted in errors in the Colorado
   Department of Education’s count of expulsions under the Act.
   Finding No. 3 – Not all LEAs had in place a criminal justice or juvenile delinquency system referral
   policy as required under the Act.

Maryland State and Local Education Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (ACN A03-90023)
   Finding No. 1 – Weakness in the collection and reporting of data resulted in significant errors in the
   data reported by MSDE.
   Finding No. 2 – Confusion over what weapons qualify as a firearm resulted in errors in Maryland’s
   count of expulsions under the Act.
   Finding No. 3 – One LEA’s student who was found to have brought a firearm to school was not
   handled according to the Act, state law, and school district policy.




                                                  Page 11
OIG PERSPECTIVE ON THE
GUN-FREE SCHOOLS ACT OF 1994                                       CONTROL NUMBER ED OIG/S03-A0018


New Mexico State Department of Education and Local Education Agencies
Compliance with the Gun-Free Schools Act of 1994 (ACN A06-A0006)
   Finding No. 1 – One New Mexico LEA did not comply with the Act.
   Finding No. 2 – The state did not accurately report firearm incidents.

Texas State and Local Education Agencies’ Compliance with the Gun-Free Schools
Act of 1994 (ACN A06-A0005)
   No findings of non-compliance reported.

West Virginia State and Local Education Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (ACN A03-A0007)
   No findings of non-compliance reported.

Wisconsin State and Local Education Agencies’ Compliance with the Gun-Free
Schools Act of 1994 (ACN A05-A0011)
   Finding No. 1 – The Wisconsin Department of Public Instruction could improve data integrity and
   eliminate reporting errors.
   Finding No. 2 – The Wisconsin Department of Public Instruction needs to obtain an assurance of a
   referral policy from all LEAs each time the LEAs apply for Elementary and Secondary Education
   funding.



The audit reports can be obtained from the Internet site: www.ed.gov/offices/OIG/Areports.htm.




                                                  Page 12
